                    While Progress Has Been Made,
                   Managers and Employees Are Still
              Susceptible to Social Engineering Techniques

                                    March 2005

                       Reference Number: 2005-20-042




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           March 15, 2005


      MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report – While Progress Has Been Made, Managers
                             and Employees Are Still Susceptible to Social Engineering
                             Techniques (Audit # 200420035)

      This report presents the results of our review to evaluate the susceptibility of Internal
      Revenue Service (IRS) employees to social engineering techniques for obtaining user
      account and password information.
      In summary, the IRS has successfully completed significant efforts in securing its
      computer network perimeters from external cyber threats. Because hackers are unable
      to gain access through these Internet gateways into the IRS, they are likely to seek
      other ways to gain access to IRS systems and, ultimately, taxpayer data. One of the
      most common tactics is to convince an organization’s employees to reveal their
      passwords. Along with user account names, passwords are needed to identify and
      authenticate employees before allowing them access to systems and data.
      The IRS has adequate computer security policies and procedures which require
      employees to protect passwords on IRS computer systems. The IRS requires
      managers and employees to acknowledge these rules when they are given access to a
      system and annually thereafter. In addition, the rules are publicized on the Office of
      Mission Assurance and Security Services (MA&SS) internal web site and during its
      IRS-wide Computer Security Awareness Week. While these efforts are noteworthy, our
      tests showed some managers and employees still do not understand the rudimentary
      computer security practices of protecting their passwords.
      We placed telephone calls to 100 managers and employees and posed as Information
      Technology helpdesk personnel seeking assistance to correct a network problem.
      Under this scenario, we asked the employees to provide their network login name and
      temporarily change their password to one we suggested. We were able to convince
      35 managers and employees to provide us their user account names and change their
                                           2

passwords. Using our test scenario, a hacker or disgruntled employee could obtain
usernames and passwords to gain unauthorized access to the IRS systems.
Our audit results represented about a 50 percent improvement over a similar test we
conducted in August 2001; however, we believe additional security awareness and
emphasis are needed to reinforce security responsibilities of IRS employees. For
example, the Chief, MA&SS, took aggressive and responsive measures to alert IRS
employees of the risks associated with social engineering after being advised of our
results. We recommended the Chief, MA&SS, continue security awareness efforts by
periodically reminding managers and employees of social engineering risks and
providing examples and scenarios that show how hackers can use social engineering
tactics to gain access to IRS systems.
Management’s Response: The Chief, MA&SS, concurred with our finding and
recommendation. The topic of social engineering will be incorporated into the IRS
mandatory annual Online Security Awareness Training, which will include examples and
scenarios of tactics used to gain access to IRS systems. In addition, the Information
Technology Security Program Office will issue periodic reminders in the form of an
all-employee notice that will be included with employees’ Earnings and Leave
statements and an article in the MA&SS newsletter. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                     While Progress Has Been Made, Managers and Employees
                      Are Still Susceptible to Social Engineering Techniques




                                                  Table of Contents


Background ................................................................................................ Page 1
Employees Were Persuaded to Provide Their
Network Usernames and Change Their Passwords................................... Page 2
         Recommendation 1: .........................................................................Page 4

Appendix I – Detailed Objective, Scope, and Methodology........................ Page 5
Appendix II – Major Contributors to This Report ........................................ Page 6
Appendix III – Report Distribution List ........................................................ Page 7
Appendix IV – Management’s Response to the Draft Report ..................... Page 8
             While Progress Has Been Made, Managers and Employees
              Are Still Susceptible to Social Engineering Techniques

                              The Internal Revenue Service (IRS) annually processes over
Background
                              222 million tax returns which are converted into electronic
                              records on various IRS systems. This information is
                              protected by law and considered sensitive. Maintaining this
                              type of information could make the IRS a target for
                              computer hackers.
                              In recent years, the IRS has successfully completed
                              significant efforts in securing its computer network
                              perimeters from external cyber threats. Because hackers are
                              unable to gain access through these Internet gateways into
                              the IRS, they are likely to seek other ways to gain access to
                              IRS systems and, ultimately, taxpayer data.
                              One such method is social engineering, which involves
                              exploiting the human aspect of computer security for the
                              purpose of gaining insider information about an
                              organization’s computer resources. One of the most
                              common tactics is to convince an organization’s employees
                              to reveal their passwords. Along with user account names,
                              passwords are needed to identify and authenticate
                              employees before allowing them access to systems and data.
                              In August 2001, with the assistance of a contractor, we
                              conducted social engineering tests on IRS employees as part
                              of our penetration testing efforts. We placed calls to
                              100 IRS employees, asking them to change their password
                              to one we suggested, and found 71 employees were willing
                              to accommodate our requests.1
                              This review was conducted from our office in
                              Walnut Creek, California, in December 2004. The audit
                              was conducted in accordance with Government Auditing
                              Standards. Detailed information on our audit objective,
                              scope, and methodology is presented in Appendix I. Major
                              contributors to the report are listed in Appendix II.




                              1
                               Management Advisory Report: Network Penetration Study of Internal
                              Revenue Service Systems (Reference Number 2002-20-057, dated
                              March 2002).
                                                                                         Page 1
               While Progress Has Been Made, Managers and Employees
                Are Still Susceptible to Social Engineering Techniques

                                The IRS has adequate password policies and procedures.
Employees Were Persuaded to
                                Managers and employees are not to share their passwords
Provide Their Network
                                with others or reveal them to anyone, regardless of his or
Usernames and Change Their
                                her position in or outside the IRS, and are not to accept
Passwords
                                passwords that are not delivered in a sealed envelope.
                                Password protection allows the IRS to maintain its
                                need to know restriction to IRS computer resources and
                                taxpayer data.
                                To support password security awareness, the IRS requires
                                all managers and employees to acknowledge these rules
                                prior to obtaining access to any IRS system. Managers and
                                employees must also recertify annually that they are aware
                                of their security responsibilities.
                                In addition, the Office of Mission Assurance and Security
                                Services (MA&SS)2 has posted these requirements on its
                                internal web site, created a monthly security newsletter
                                entitled the “Security Sentinel,” which contains significant
                                information on computer security, and established an
                                IRS-wide Computer Security Awareness Week, which was
                                held from November 29 to December 3, 2004.
                                While these awareness efforts are notable, some managers
                                and employees are still susceptible to social engineering
                                techniques. Similar to our tests in 2001, we placed
                                telephone calls to 100 IRS employees, including managers.
                                We posed as Information Technology (IT) helpdesk
                                personnel who were seeking assistance to correct a network
                                problem. Under this scenario, we asked employees to
                                provide their network logon name and temporarily change
                                their password to one we suggested.
                                We were able to convince 35 managers and employees to
                                provide us their username and to change their password.
                                While our results represented about a 50 percent
                                improvement over the previous test conducted in 2001
                                (see Figure 1), the noncompliance rate suggests additional
                                emphasis or awareness is needed.



                                2
                                 The mission of this office is to ensure the IRS has policies, plans, and
                                procedures in place that will support the continuation of the IRS’
                                business processes under all circumstances and the protection of its
                                employees and other assets (i.e., revenue, data, and facilities).
                                                                                                  Page 2
While Progress Has Been Made, Managers and Employees
 Are Still Susceptible to Social Engineering Techniques

                     Figure 1: Percentage of IRS Employees Willing to Change
                                            Passwords


                             100%

                              80%

                              60%

                              40%

                              20%

                                0%
                                       Augus t      Dece m be r
                                        2001          2004


                 Source: Treasury Inspector General for Tax Administration (TIGTA)
                 reviews conducted in 2001 and 2004.

                 With an employee’s user account name and password, a
                 hacker could gain access to that employee’s access
                 privileges, though the IRS’ strong systemic perimeter
                 controls lessen this risk. Even more significant, a
                 disgruntled employee could use the same social engineering
                 tactics and obtain another employee’s username and
                 password. With some knowledge of IRS systems and
                 applications, this disgruntled employee could more easily
                 gain unauthorized access to IRS data as well as damage
                 information on IRS systems.
                 The 35 managers and employees who were willing to
                 change their password gave several reasons why they were
                 willing to accommodate our request.
                     •   They were not aware of social engineering tactics as
                         well as the security requirements to protect their
                         passwords.
                     •   They were willing to assist in any way possible once
                         we identified ourselves as the IT helpdesk.
                     •   They were having network problems and the call
                         seemed legitimate.
                     •   Although they questioned the caller’s identity and
                         could not locate the caller’s name, which was
                         fictitious, on the IRS’ global email address book,
                         they changed their password anyway.

                                                                             Page 3
While Progress Has Been Made, Managers and Employees
 Are Still Susceptible to Social Engineering Techniques

                     •   They were hesitant, but their managers gave them
                         approval to assist us.
                 Once informed this exercise was a TIGTA test, some
                 managers and employees admitted they knew they were not
                 supposed to share their password with anyone but did so
                 anyway. During and after the test calls, employees
                 contacted the Audit Manager who was supervising the test
                 as well as the IRS Computer Security Incident Response
                 Center (CSIRC) to verify the calls were part of a TIGTA
                 test.
                 Within 2 days after completing our test, the Chief, MA&SS,
                 issued an all-employee email alert about possible social
                 engineering telephone calls and notified employees to
                 immediately contact the CSIRC if they received these types
                 of calls. One week after completing our calls, the Chief,
                 MA&SS, provided employees more in-depth information on
                 social engineering as part of the weekly all-employee “IRS
                 Headlines” email. These actions illustrate aggressive,
                 responsive measures to our efforts.

                 Recommendation

                 The Chief, MA&SS, should:
                 1. Enhance security awareness efforts by periodically
                    reminding managers and employees of social
                    engineering risks and providing examples and scenarios
                    that show how hackers can use social engineering tactics
                    to gain access to IRS systems.
                 Management’s Response: The Chief, MA&SS, concurred
                 with our recommendation and has incorporated the topic of
                 social engineering into the IRS mandatory annual Online
                 Security Awareness Training, which includes examples and
                 scenarios of tactics used to gain access to IRS systems. In
                 addition, the IT Security Program Office will issue periodic
                 reminders in the form of an all-employee notice that will be
                 included with the employees’ Earnings and Leave
                 statements and an article in the MA&SS newsletter.




                                                                       Page 4
                 While Progress Has Been Made, Managers and Employees
                  Are Still Susceptible to Social Engineering Techniques

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the susceptibility of Internal Revenue
Service (IRS) employees to social engineering techniques for obtaining user account and
password information. To accomplish this objective, we:
I.     Evaluated the adequacy of IRS security policies and procedures that have been
       established to guide IRS employees in recognizing and handling social engineering
       techniques.
       A.      Identified IRS policies, procedures, and guidelines on password security.
       B.      Researched Federal Government guidelines and industry standards/guidance on
               social engineering techniques and defenses.
II.    Conducted telephone calls to IRS employees posing as an Information Technology
       helpdesk employee.
       A.      Developed a scenario for social engineering tactics using telephone calls. We
               decided to use a scenario similar to the one used during our previous test
               conducted, with the assistance of a contractor, in 2001.
       B.      Judgmentally selected a sample of 100 IRS employees from a population of
               68,083 employees who were outside the Information Technology Services and the
               Mission Assurance and Security Services organizations and had network access,
               as of November 2004. The sample of 100 employees was based on ensuring
               consistency with the previous test conducted in 2001 and allowing completion of
               the calls within a 1- to 2-day period with the available staffing.
       C.      Prior to our calls, notified the Deputy Commissioner for Operations Support of
               our test and requested assistance in conducting this test spontaneously, so we
               could obtain a true gauge of employees’ understanding of password security.
       D.      Executed the telephone calls and documented the results of the review.




                                                                                              Page 5
                While Progress Has Been Made, Managers and Employees
                 Are Still Susceptible to Social Engineering Techniques

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Audit Manager
Midori Ohno, Lead Auditor
Alan Beber, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
William Lessa, Senior Auditor
Abraham Millado, Senior Auditor
Stasha Smith, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 6
                While Progress Has Been Made, Managers and Employees
                 Are Still Susceptible to Social Engineering Techniques

                                                                          Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Mission Assurance and Security Services OS:MA
       Chief Information Officer OS:CIO




                                                                               Page 7
While Progress Has Been Made, Managers and Employees
 Are Still Susceptible to Social Engineering Techniques

                                                          Appendix IV


    Management’s Response to the Draft Report




                                                               Page 8
While Progress Has Been Made, Managers and Employees
 Are Still Susceptible to Social Engineering Techniques




                                                          Page 9
